<html>
<title> - WORKING AND AGING WITH DISABILITIES: FROM SCHOOL TO RETIREMENT</title>
<body><pre>[Senate Hearing 115-468]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-468

     WORKING AND AGING WITH DISABILITIES: FROM SCHOOL TO RETIREMENT

=======================================================================

                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                            OCTOBER 25, 2017

                               __________

                           Serial No. 115-11

         Printed for the use of the Special Committee on Aging


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
28-204 PDF                WASHINGTON : 2019        



                       SPECIAL COMMITTEE ON AGING

                   SUSAN M. COLLINS, Maine, Chairman

ORRIN G. HATCH, Utah                 ROBERT P. CASEY, JR., Pennsylvania
JEFF FLAKE, Arizona                  BILL NELSON, Florida
TIM SCOTT, South Carolina            SHELDON WHITEHOUSE, Rhode Island
THOM TILLIS, North Carolina          KIRSTEN E. GILLIBRAND, New York
BOB CORKER, Tennessee                RICHARD BLUMENTHAL, Connecticut
RICHARD BURR, North Carolina         JOE DONNELLY, Indiana
MARCO RUBIO, Florida                 ELIZABETH WARREN, Massachusetts
DEB FISCHER, Nebraska                CATHERINE CORTEZ MASTO, Nevada
                              ----------                              
                 Kevin Kelley, Majority Staff Director
                  Kate Mevis, Minority Staff Director
                                CONTENTS

                              ----------                              

                                                                   Page

Opening Statement of Senator Susan M. Collins, Chairman..........     1
Statement of Senator Robert P. Casey, Jr., Ranking Member........     2

                           PANEL OF WITNESSES

David Michael Mank, Ph.D., Professor Emeritus, Indiana 
  University, Bloomington, Indiana...............................     5
Tamar Heller, Ph.D., Professor, Distinguished Professor and Head, 
  Institute on Disability and Human Development (University 
  Center of Excellence in Developmental Disabilities), Department 
  of Disability and Human Development, University of Illinois at 
  Chicago........................................................     7
Eric Meyer, LCSW, MBA, President and Chief Executive Officer of 
  Spurwink Services, Portland, Maine.............................     9
Jeff Smith, Senior Mail Clerk, Arkema, King of Prussia, 
  Pennsylvania...................................................    10

                                APPENDIX
                      Prepared Witness Statements

David Michael Mank, Ph.D., Professor Emeritus, Indiana 
  University, Bloomington, Indiana...............................    28
Tamar Heller, Ph.D., Professor, Distinguished Professor and Head, 
  Institute on Disability and Human Development (University 
  Center of Excellence in Developmental Disabilities), Department 
  of Disability and Human Development, University of Illinois at 
  Chicago........................................................    32
Eric Meyer, LCSW, MBA, President and Chief Executive Officer of 
  Spurwink Services, Portland, Maine.............................    61
Jeff Smith, Senior Mail Clerk, Arkema, King of Prussia, 
  Pennsylvania...................................................    63

                  Additional Statements for the Record

Sara Weir, President, National Down Syndrome Society.............    66

 
     WORKING AND AGING WITH DISABILITIES: FROM SCHOOL TO RETIREMENT

                              ----------                              


                      WEDNESDAY, OCTOBER 25, 2017

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m., in 
Room SD-562, Dirksen Senate Office Building, Hon. Susan M. 
Collins (Chairman of the Committee) presiding.
    Present: Senators Collins, Tillis, Fischer, Casey, Nelson, 
Gillibrand, Donnelly, Warren, and Cortez Masto.

    OPENING STATEMENT OF SENATOR SUSAN M. COLLINS, CHAIRMAN

    The Chairman. The hearing will come to order. Good 
afternoon.
    Since 1945, October has been designated as National 
Disability Employment Awareness Month. Today we will examine a 
range of issues, including educational and vocational training 
and social and housing supports, that can help lead to a stable 
career and a more satisfying life for many people who are 
living with a disability.
    Studies show that employing individuals with disabilities 
is not simply a social good. It is also good business. 
Individuals with disabilities offer many advantages, including 
a highly motivated workforce, lower rates of absenteeism and 
employee turnover, greater loyalty, and higher rates of 
satisfaction and productivity among the entire workforce.
    I know these benefits from personal experience. Michael 
Noyes, who was born with disabilities, has been a caseworker in 
my Bangor, Maine, office for the past 20 years and worked for 
former Senator Bill Cohen before that. His excellent work has 
been recognized by numerous veterans' organizations, and he is 
appreciated by his coworkers and all those whom he has helped 
over the years. He is an extraordinary person who strengthens 
the services that my office provides.
    While the business case is strong for employing individuals 
with disabilities, the unemployment data show that we can do 
better. While nearly three-quarters of Americans without 
disabilities are employed, only a third of those with 
disabilities have jobs.
    The biggest barrier appears to be cultural--an implicit 
bias that is widespread. Avery Olmstead, a 46-year-old from Old 
Town, Maine, shared his experience with my staff of applying 
for a job. Avery has cerebral palsy and uses a wheelchair to 
get around. When he arrives for an interview, he says that he 
is often met with visible confusion and discomfort. He finds 
himself spending half of his time trying to make the 
prospective employer feel more comfortable.
    Yet Americans with disabilities are integral parts of our 
communities. They are our mothers and our fathers, our aunts 
and uncles, our children and our siblings, loved by family and 
friends. They are doctors, writers, researchers, artists, 
scientists, carpenters, counselors, and in just about every 
sector of our society. Every day individuals with disabilities 
dream, and they achieve their dreams and contribute to the 
workforce.
    Depending on the specific disability, some individuals may 
require certain supports, ranging from help with basic daily 
activities to transportation and housing. With this assistance, 
we can break down barriers and move from exclusion to inclusion 
and recognition.
    From housing and social supports to vocational training and 
employment, there are models of care and integration that work 
to ensure that each individual is valued as a contributing 
member of society.
    With advances in medicine and technology, Americans with 
disabilities are living longer. This presents both unique 
opportunities and challenges as they prepare for their older 
years. For some with disabilities, the normal aging process can 
be exacerbated and complicated due to medications, reduced 
mobility, and their general health status.
    Often, as these individuals age, so too do their family 
caregivers. Elderly parents who served as caregivers for their 
entire lives may find themselves in need of care. For some 
families, the caregiving situation flips: The adult with the 
disability becomes the caregiver for the aging parent. For 
others, caregiving needs double, as both the adult child and 
the parent require care, and siblings or other relatives may be 
called upon to help. It is so critical that we support our 
caregivers, who are an essential source of assistance, but 
respite care and other supports are often very difficult to 
secure, particularly in rural America.
    We must better prepare for the retirement years of people 
with disabilities. Like many other older working Americans, 
they look forward to retiring. This desire, however, is 
complicated by the fact that many individuals with disabilities 
have experienced higher rates of unemployment and 
underemployment. Approximately 27 percent of Americans with 
disabilities live in poverty. That is the highest rate of any 
subgroup in our country.
    Whether one is born with disabilities or acquires them as 
one grows older, aging is a normal part of the human 
experience. Older Americans with disabilities share the same 
hopes and aspirations of the average senior, and we must work 
to ensure that their distinctive needs are met as they grow 
older.
    I am now pleased to turn to our Ranking Member, Senator 
Casey, for his opening statement.

  OPENING STATEMENT OF SENATOR ROBERT P. CASEY, JR., RANKING 
                             MEMBER

    Senator Casey. Chairman Collins, thank you for holding this 
hearing on disability employment. I want to begin today with an 
observation that I think all of us would agree with, which is 
that all of us, in one way or another, cherish our own dignity. 
Many things contribute to our dignity, of course: keeping our 
word, our relationships, how we treat each other, for example. 
Work also contributes to our dignity. The 12th century Hindu 
philosopher Basava referred to the ``dignity of work'' and how 
work can make a person holy.
    Our hearing today will cover how laws like the Americans 
with Disabilities Act, the Individuals with Disabilities 
Education Act, and the Rehabilitation Act have helped to make 
work dignifying for individuals with disabilities. This hearing 
will also examine what more we can do so that individuals with 
disabilities have a fair chance to attain financial security 
during their work years and in retirement.
    With passage and implementation of the ADA, the IDEA, and 
the Rehabilitation Act, when you walk into a store or a 
restaurant or even a ballpark, it is likely you will see an 
employee with a disability. This is a great start toward 
fulfilling what the philosopher Basava said about the dignity 
of work.
    However, for far too many individuals with disabilities, 
the dignity of work is still out of reach. When the Americans 
with Disabilities Act was signed into law in 1990, workforce 
participation for those with disabilities was at about 30 
percent. Today that participation rate is still at 
approximately 30 percent.
    The jobs individuals with disabilities hold and rates of 
pay may be better, but the overall participation rate has not 
changed. And it is not for lack of desire. A 2015 Kessler 
Foundation survey found that over 68 percent of people with a 
disability want to work.
    We know that work has numerous benefits. I will just give 
you a few. First, it creates social networks. Second, it can be 
a pathway to better health, both physical and mental. Third, 
work provides dignity, as I said before, and a sense of self-
worth. Fourth, work is the key ingredient to economic self-
sufficiency. And, finally, work benefits the economy.
    We, of course, need to address the barriers to employment. 
That is one of the reasons I worked hard to pass back in 2014 
the ABLE Act. The ABLE Act made it possible for people with 
disabilities to save money and not put needed benefits, such as 
health care, at risk. I am pleased to report that, as of the 
second quarter of this year, over 10,000 ABLE accounts were 
open and over $37 million was saved by individual account 
holders.
    So as we break down financial barriers to employment, we 
must also ensure that individuals with disabilities are able to 
develop a strong foundation for success in the workforce. As a 
member of the committee that reauthorized the Rehabilitation 
Act in 2014, I worked to make sure that young people with 
disabilities get the experiences necessary to find a job. These 
experiences include learning soft skills, the type of skills 
that make it possible to have a successful interview and know 
how to interact in the workplace itself. It also means getting 
the chance to volunteer or to participate in an internship or 
even to have a part-time job.
    It also means feeling confident about one's abilities and 
one's disability. Part of doing more includes making sure 
people with disabilities can find good-paying jobs working with 
their peers who do not have a disability. And it means benefits 
and supports such as home and community-based services, making 
sure that those remain in place.
    So I look forward to the hearing and hearing from our 
witnesses about strategies and policies that will make it 
possible for all Americans to realize the dignity of work.
    Thank you.
    The Chairman. Thank you very much, Senator Casey. I must 
say I have learned something already at our hearing today. I 
have used the phrase ``dignity of work'' many times. It is a 
philosophy that I really believe in, but I had no idea that it 
went back to a 12th century Hindu philosopher.
    Senator Casey. I did not either until recently.
    [Laughter.]
    The Chairman. You have good staff, clearly.
    I am now very pleased to turn to our panel of witnesses. I 
want to begin by first recognizing my colleague Senator 
Donnelly to introduce our first witness, who is from Indiana.
    Senator Donnelly. Thank you, Madam Chair, and I would like 
to thank the Ranking Member for the history lesson on 12th 
century Hindu philosophy. It is greatly appreciated.
    Madam Chair, it is my pleasure to introduce a fellow 
Hoosier, Dr. David Mank. Dr. Mank is an Indiana University 
School of Education professor emeritus and former director of 
the Indiana Institute on Disability and Community, where he 
currently serves as a consultant. In these roles, Dr. Mank has 
focused on special education and employment opportunities for 
individuals with disabilities. He has also served in leadership 
positions at the American Association on Intellectual and 
Developmental Disabilities and the Association of University 
Centers on Disabilities.
    Throughout his career, his research and leadership has 
helped improve the lives of individuals with disabilities in 
Indiana and across our land. Dr. Mank recently served as Chair 
of the Advisory Committee on Increasing Competitive Integrated 
Employment of Individuals with Disabilities. This committee was 
established by the Workforce Innovation and Opportunity Act to 
identify barriers to employment and ways of increasing 
employment for individuals with disabilities. Our hearing today 
will review the advisory committee's report and its 
recommendations for the Federal Government.
    Many challenges still remain to ensuring that all Americans 
with disabilities have the resources and support necessary to 
lead healthy and productive lives. Dr. Mank's work is helping 
address this important issue, and we are fortunate to have the 
chance to hear his expertise today.
    Dr. Mank, I want to thank you for your lifetime of work on 
this issue and for your willingness to testify before the 
committee. I look forward to your testimony.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Next I would like to introduce our second witness, Dr. 
Tamar Heller. Dr. Heller is the head of the Department of 
Disability and Human Development at the University of Illinois 
at Chicago. She is also the co-founder of the national Sibling 
Leadership Network for brothers and sisters who have a sibling 
with a disability.
    Third, it gives me great pleasure to introduce Eric Meyer 
from Portland, Maine. Mr. Meyer is president and CEO of 
Spurwink, a nationally accredited nonprofit serving Mainers 
with disabilities of all ages. Spurwink is one of Maine's 
largest providers of behavioral health and educational services 
for children, adolescents, adults, and families. Under Mr. 
Meyer's leadership, Spurwink provides services for nearly 7,000 
Mainers at 35 locations around the state as they age in and out 
of federally based programs.
    I am very pleased that you are able to be with us this 
afternoon, and I look forward to your testimony.
    I am now going to turn to our Ranking Member, Senator 
Casey, to introduce our witness from his state.
    Senator Casey. Thank you, Chairman Collins. I am pleased to 
introduce Jeff Smith from Bryn Mawr, Pennsylvania. Jeff is a 
senior mail clerk at Arkema, which is a multinational chemical 
company located in King of Prussia, Pennsylvania. He will tell 
us about his experiences in the workforce and why his job is 
important to him.
    I hope I am allowed to say this, Jeff, but I understand 
that you are engaged?
    Mr. Smith. Yes, sir.
    Senator Casey. I am glad I checked with you first, right?
    [Laughter.]
    Senator Casey. He is engaged to be married, and his 
fiancee, Phyllis, is here with us today. Phyllis, I did not 
have a chance to say hello before. Thanks for being here.
    Jeff, we look forward to your testimony, and thanks for 
your presence here.
    Mr. Smith. Thank you.
    The Chairman. Dr. Mank, we will start with you. Thank you.

  STATEMENT OF DAVID MICHAEL MANK, PH.D., PROFESSOR EMERITUS, 
            INDIANA UNIVERSITY, BLOOMINGTON, INDIANA

    Mr. Mank. Thank you, Chairman Collins, Senator Casey, and 
thank you for the kind introduction, Senator Donnelly.
    I would like to focus my remarks today on the Workforce 
Innovation and Opportunity Act and its implementation going 
forward.
    This act established employment of people with disabilities 
as a national priority in a way that is more clear than has 
ever been done before in this country. The goal of this act is 
to increase employment of people with disabilities in 
competitive integrated employment and significantly limit 
placements in subminimum wage, sheltered workshops.
    Competitive integrated employment is defined as paying 
people with disabilities at least the minimum wage or the wage 
that any other person would be paid for doing the same kind of 
work. It must be performed in settings where people without 
disabilities work and the opportunity to interact with others 
and provide the opportunities for career advancement that 
anyone else would receive in that workplace.
    Let me be clear about several things that are well 
established in the research that we have in this country. We 
know that people with disabilities want good jobs in integrated 
settings and with good wages. We know that people with 
disabilities want to pursue careers. We know that people with 
the label of ``very significant'' disabilities are fully 
capable of working productively in competitive integrated 
employment when and if provided with supports individualized to 
their interests and their needs. This has long been established 
in research and emerging practice.
    In addition, in research specifically in Indiana, when 
asked, two-thirds of the people in sheltered workshops wanted 
to try competitive integrated employment in community jobs. We 
know that when people leave day programs and sheltered 
workshops and go into integrated employment, they have greater 
variety in their jobs, they pay more taxes and receive more 
employer-sponsored benefits. This is the kind of research we 
did at Indiana University and as a part of the Association of 
University Centers on Disability.
    Senator Donnelly mentioned that I was appointed to the 
Committee for Increasing Competitive Integrated Employment for 
People with Disabilities. This committee was established by the 
Workforce Innovation and Opportunity Act, and it had two very 
specific charges. The first charge was to advise the Secretary 
and Congress on ways to increase competitive integrated 
employment for people with intellectual and developmental 
disabilities. The second charge was to advise Congress and the 
Secretary on the use of subminimum wage certificates in this 
country that makes it possible for people to be paid less than 
the minimum wage in any state or the nation. After appointment 
to that committee, I was later elected Chair. This committee 
was important for a couple of other reasons.
    Number one, its composition was unique inasmuch as it was 
comprised of perspectives across the disability spectrum. There 
were advocacy organizations. There were disability law 
attorneys. There were Government representatives from four 
different departments of Government. There were academic 
representatives. There were people with disabilities. There 
were family members of people with disabilities. And there were 
providers of services, both of competitive integrated 
employment as well as sheltered workshops.
    The committee report and recommendation, which I submitted 
with my written testimony, were recommendations arrived at by 
consensus, without minority report and without objection. We 
worked really hard to get that consensus in those committees. I 
will highlight just a few of those today.
    Number one, align funding of employment services with 
outcomes. Too often in disability services, we pay for 
services, and yet do not get employment outcomes. There are 
ways in federal and state government to craft funding formulas 
that reward outcomes, and we have specific recommendations 
about that.
    Number two, create incentives to states to transform their 
system from sheltered work in day programs to a competitive 
employment system. We know that we have emerging opportunities 
in states to do that right now, yet more attention and 
assistance will be needed.
    Number three, address the issue of subminimum wage. Our 
recommendation was that Congress should amend the Fair Labor 
Standards Act to allow for a ``well-designed, multi-year phase-
out'' that results in people with disabilities entering 
integrated employment. It is no achievement to eliminate 
subminimum wage without offering something better, and our 
recommendation is focused on the need to make sure that we 
offer something better along with the supports to make that 
possible.
    We also made recommendations about assistance and 
incentives to the business community in order to expand 
employment of people with disabilities. You can read those 
recommendations in my report, and I thank you for this 
opportunity to testify today.
    The Chairman. Thank you very much, Dr. Mank.
    Dr. Heller, welcome.

  STATEMENT OF TAMAR HELLER, PH.D., PROFESSOR, DISTINGUISHED 
     PROFESSOR AND HEAD, INSTITUTE ON DISABILITY AND HUMAN 
 DEVELOPMENT (UNIVERSITY CENTER OF EXCELLENCE IN DEVELOPMENTAL 
DISABILITIES), DEPARTMENT OF DISABILITY AND HUMAN DEVELOPMENT, 
               UNIVERSITY OF ILLINOIS AT CHICAGO

    Ms. Heller. Thank you very much, Senators Casey and 
Collins, for highlighting the issues of people aging with 
intellectual and developmental disabilities as part of this 
hearing.
    I am currently director of one of the University Centers of 
Excellence on Developmental Disabilities, part of one of 67 
centers, and I also direct two rehabilitation research and 
training centers, both funded by the National Institute on 
Disability, Independent Living, and Rehabilitation Research 
(NIDILRR) and the Administration on Community Living, one that 
addresses developmental disabilities and health and the second 
one that addresses family support. I previously directed the 
Rehabilitation Research and Training Center on Aging with 
Developmental Disabilities. So bridging aging and disability I 
see as a very important issue.
    As Senator Collins noted, people who are aging into 
disability and people who have long-term disabilities have many 
similar needs, and they are also both experiencing 
transformation in the way health care and long-term services 
and supports are being delivered. We see more managed care and 
more integration of or at least attempts to integrate health 
care and long-term services and supports.
    There is a growing population of people with intellectual 
and developmental disabilities, partly because they a have 
longer life expectancy than it used to be. So we are estimating 
a growth from 850,000 people with intellectual and 
developmental disabilities in 2010 to about 1.4 million in 
2030.
    I would like to focus my testimony on three main areas--
looking at health-related changes, family caregiving issues, 
and retirement issues.
    We know that there is earlier aging and mortality, 
particularly for certain groups of people with intellectual and 
developmental disabilities. For example, people with Down 
syndrome are more likely to experience Alzheimer's disease 
about 20 years earlier. In fact, I just last week was at an NIH 
summit on dementia care and had the opportunity to speak about 
the work that we are doing in regard to the National Task Group 
on Intellectual Disabilities and Dementia, that is looking at 
the special care issues for that group. By the way, it is co-
led by Matt Janicki, who is from Maine. You might be interested 
in that.
    They also develop chronic diseases earlier, such as 
diabetes and osteoporosis, two areas. Their health behaviors--
they tend to be more sedentary with poorer health, resulting in 
higher rates of obesity, and health care access is an issue, 
and we see much later diagnoses of cancer.
    So what can we do about that? We have some very good 
interventions that have been developed for people who are 
older, such as chronic disease self-management, and now there 
are adaptations that have been made for people with--or at 
least the beginnings of that for people with intellectual and 
developmental disabilities, for example, in the area of 
diabetes as one area. Our center has developed this program 
called ``Health Matters,'' exercise and nutrition health 
education for people with developmental disabilities, and it is 
being rolled out throughout states and all over the country, 
and we are testing different ways of disseminating it.
    In the area of long-term services and supports, we know 
that people with intellectual and developmental disabilities 
are likely to live with their families most of their lives. 
Seventy-one percent live with family, and 24 percent of those 
are living with parents who are 60 years and older. So you can 
imagine with these long waiting lists that we have for 
residential services of over 100,000, that is a big issue.
    Particularly, long-term caring has an impact on mothers in 
regard to income and to their restricted social networks, and 
we see for minorities also health issues for people who are 
caring for people with intellectual and developmental 
disabilities.
    Another issue is that siblings end up playing a larger and 
larger role. I myself am a sibling, and I have a sister with 
intellectual and developmental disabilities, and I see the many 
issues that she is facing.
    Only 15 percent of those caring at home receive any kind of 
public family supports. There is a national project that is 
funded called the ``National Community of Practice for 
Supporting Families,'' and that is trying to make a difference 
in many different states in terms of looking at different ways 
of supporting families. And also we have the Research and 
Training Center on Family Support that is looking at research 
and public policy across both disability and aging.
    In regard to retirement, people with intellectual and 
developmental disabilities, whether they are in integrated 
settings or in non-work facilities, which many are in, do look 
for retirement options. For people who are working, it is 
especially important to look at accommodations for people. 
Especially assistive technology and inclusive transportation 
are two areas that I think are especially important. And we 
need to look at individualized retirement options that take 
into account helping to support people in decisionmaking and 
helping them plan for the future and looking at ways to have 
meaningful lives in inclusive communities.
    I have specific recommendations that summarize what I have 
just said in my report that you can look at.
    Thank you.
    The Chairman. Thank you very much, Dr. Heller.
    Mr. Meyer.

    STATEMENT OF ERIC MEYER, LCSW, MBA, PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER OF SPURWINK SERVICES, PORTLAND, MAINE

    Mr. Meyer. Chairman Collins, Ranking Member Casey, and 
distinguished members of the Senate Special Committee on Aging, 
thank you for this opportunity to testify today. I am Eric 
Meyer, president and CEO of Spurwink Services in Portland.
    Long before the closure of Maine's only institution for 
individuals with intellectual disabilities, Spurwink recognized 
the importance of connection to community and began providing 
integrated services outside the confines of segregated 
institutions for people with intellectual and developmental 
disabilities, or IDD.
    Spurwink began with one house serving eight boys on 
Riverside Street in Portland in 1960. Today, as you mentioned, 
Senator Collins, we serve more than 7,000 people each year 
across the State of Maine, with more than employees doing the 
amazing work that we are committed to.
    Our mission and our vision remain the same: providing 
exceptional and evidence-based behavioral health and education 
services for children, adults, and families with disabilities 
so that they can lead healthy, engaged lives in our 
communities.
    At Spurwink our therapeutic model is built on preparing 
young people with disabilities for a successful transition into 
adulthood and for adults with disabilities to live healthy, 
engaged lives. Our person-centered planning model is driven by 
clients and their families--creating individualized goals, 
planning with their teams where they will live, the type of 
work they want to pursue--all informing the supports that our 
team will provide to help them meet their goals.
    People with disabilities can and do work, and we believe it 
is not only the role of Spurwink but of our country to support 
adults with IDD to live meaningful and productive lives.
    While few of our clients go on to higher education, many 
benefit from learning a trade or skill. For example, our small 
engine repair program at our Chelsea campus gives students an 
opportunity to work on tractor motors, small boat engines, and 
snow blowers for local neighbors and businesses. And with the 
season that is right around the corner, snow blowers in 
particular are very popular this time of year. In our 
experiential learning setting, students learn not only 
practical skills in small engine repair, but about 
responsibility, perseverance, patience, and cooperative work. 
They build confidence in themselves, and that confidence 
translates to all parts of their lives.
    Riley, one of our former students with autism in Portland, 
started his career journey at in-house school jobs, moving on 
to community-based training folding laundry at The Cedars 
Nursing Home, shelving and alphabetizing books at the Falmouth 
Library, and preparing orders for distribution at Planet Dog 
Warehouse. After graduation he successfully worked in the 
warehouse at Micucci's Wholesale Foods. His parents stated, 
``The Spurwink vocational program exposed our son to a range of 
work environments and responsibilities with the full support of 
a job coach, which was not available in our public school. He 
was able to build work skills and confidence thanks to the 
Spurwink vocational team's experience.''
    Spurwink does not receive state or federal funding for 
these pre-vocational programs, yet we are committed to making 
them available. We believe that it is absolutely crucial that 
students leave Spurwink with the skills and experience needed 
to lead healthy and productive lives.
    We also believe that it makes good economic sense, much as 
you have said, Chairman, for the State of Maine. It is no 
secret that recruitment and retention of employees is a major 
priority area for Maine businesses, Spurwink included.
    In addition, young people who are employed in appropriate 
work are more stable financially and less likely to require 
additional economic supports in adulthood.
    For our adult population, ages 18 to 84, Spurwink provides 
residential and community supports. Key to our services is 
self-determination, individual choice, and the dignity of work. 
There is that term again. This includes access to continuing 
education and/or meaningful employment, a place to call home, 
robust community involvement, and other components of a 
meaningful life. Without this, there is no community 
integration.
    Employment should be an option for all who want to and can 
work, and it is never too late to open this door. For example, 
Robert, age 57, has a mild intellectual disability and mental 
health challenges. He spent many years in a group home setting 
and had dabbled in employment, but intrusive thoughts and lack 
of focus always led to dismissal. Robert made the decision to 
move into a Spurwink shared living home, and in the new home, 
he began to thrive and develop a stronger sense of self-
advocacy. He decided to try employment again, and for months 
now, he has been working several hours a week, stocking coolers 
at a small store. He has done his job well, often offering 
customers anecdotal comments about the additives of carbonated 
beverages. Despite his past unsuccessful attempts at 
employment, he is now considered a valued employee, connected 
to his community, and his job is a boon to his self-esteem. Let 
us work together to make community integration and employment 
for people with disabilities the norm in the United States--for 
people with disabilities, for the strength of the economy, and 
for the vitality of our communities.
    We thank you again for this opportunity to testify. I look 
forward to your questions.
    The Chairman. Thank you very much, Mr. Meyer.
    Mr. Smith, welcome. We are glad to have you with us today.

  STATEMENT OF JEFF SMITH, SENIOR MAIL CLERK, ARKEMA, KING OF 
                     PRUSSIA, PENNSYLVANIA

    Mr. Smith. Good afternoon. My name is Jeff Smith. I am 63 
years old and live in the Philadelphia suburbs. I am excited to 
be here today to tell you about me. Thank you to Chairman 
Collins, Ranking Member Casey, and the Special Committee on 
Aging for inviting me.
    My mother is 94 years old, and she could not come with me 
today to Washington, but I know she is watching me on TV. I 
have a brother named Tat who lives in Toronto and a sister 
named Carol who lives in New Mexico, and they also could not 
come. I have a fiancee in Philadelphia named Phyllis. She is 
here with me today, and so are Stacy Levitan and Dave Mytych 
from Judith Creed Horizons for Achieving Independence (JCHAI), 
which helps over 130 people with disabilities like me to live 
independently.
    I have worked at Arkema for 39--almost 40--years delivering 
the mail as a senior mail clerk. I have my own apartment where 
I live by myself, and I do not need help from my mother or my 
family.
    I get help once a week from Dave Mytych, my social worker, 
who works at JCHAI. JCHAI helps me to be independent and has 
changed my life. JCHAI helps me feel more positive about life 
because they help me have more friends and I see how happy 
everyone else is. Everyone I know has changed because of the 
help they get from JCHAI. JCHAI helps me with shopping, keeping 
my apartment clean, and cooking. Dave was a cook before, and he 
helped me cook fish. We are going to try a new recipe next time 
that he says will make the fish taste even better.
    Because of JCHAI, it is a whole new way of life. I am 
treated better by everyone at work and in my life, and it is 
because I am so happy.
    I am very proud that I have been able to work at Arkema for 
all these years. Working at Arkema is great because I love 
delivering the mail. I go to a lot of different places all over 
our campus, which is one square mile. I get to do a lot of 
walking, which clears my mind, and I can think of different 
ways that I can help the world. I like to meet different people 
at work and from all over the world, like from Japan, Korea, 
Vietnam, and China. I also have a lot of friends since I have 
been working there so long. I even have some friends who have 
been there almost as long as I have.
    I like that I have my own salary that lets me go to the 
laundromat, the market, and I can take Phyllis on dates or 
trips with JCHAI. Sometimes we even go out of state on some of 
the trips, like to New Hampshire, Connecticut, and 
Massachusetts--all over the eastern seaboard.
    One of the things I like to do in my free time is work on 
my rock collection, which I have gotten rocks from Colorado, 
Pennsylvania, Texas, and Arizona. I especially like quartz. The 
rocks give me a neat feeling when I look at them. I also 
collect coins from all over the world. I get them from change 
that I get when I buy things, and sometimes I go to coin shops 
in Philadelphia and get coins there. Even the Natural Science 
Museum helps me. I can afford to do all these things because I 
have my own money that I earn from my job.
    Having my own job and support from JCHAI means that my 
mother does not have to worry about me anymore. She knows that 
I do great on my own. And if I need help, I do not have to get 
it from her. I know who to call, which is Dave and the people 
at JCHAI.
    Getting older is really just a part of life. It is an 
interesting facet of life. When I was 30, I thought, ``I have 
so many more years of my life.'' Now I can look back and say 
that is gone, but I am still working hard, making a living, I 
still have friends, I have help with everything I need, and it 
is really a tribute to how good life is.
    In the future, I will retire when I am 66 because I will 
have a full pension, and I will be able to live on that. When I 
retire, Phyllis and I will be able to spend a lot of time 
together, and we will live our own life. We will do a lot of 
things with each other. We will go on trips and go around 
together. We like to go to the movies and out to dinner, lunch, 
and breakfast. We go all over Philadelphia. I am looking 
forward to the next part of my life.
    Thank you for letting me talk to you today.
    The Chairman. Thank you very much, Mr. Smith. We very much 
appreciate your being here and sharing your personal story.
    Dr. Mank, I want to start with a question for you to make 
sure that everyone understands a phrase that you used, and that 
was ``competitive integrated employment.'' I believe that most 
people are familiar with sheltered workshops, for example, but 
you are talking about something quite different. Could you 
explain to us what you mean by ``competitive integrated 
employment''?
    Mr. Mank. Yes, indeed. Thank you for the question. 
Competitive integrated employment means a job in a business, 
public sector or private sector, that anyone would have access 
to that pays a wage rate that is the competitive wage. So 
accountants have--there is a competitive wage for accountants. 
There is a competitive wage for mechanics. And people with 
disabilities should have access to those same kind of jobs at 
the same wages.
    Integrated means jobs in the public sector and private 
sector that are not segregating people with disabilities into a 
given setting, but instead are the employers of everyday life, 
the cleaners, the retail stores, the offices where everyone 
else works, that people with intellectual and developmental 
disabilities are now just getting access to as opposed to 
primarily having access to segregated settings where it is 
mostly or primarily people with disabilities working, many 
times earning not only less than competitive wages but less 
than the minimum wage of the country.
    The Chairman. Thank you. That is very helpful. So instead 
of talking about a work environment where, say, most of the 
individuals have disabilities, you are talking about a regular 
work environment where there are some people with disabilities, 
some people without disabilities, and they are all working 
together and being paid comparable wages.
    Mr. Mank. Exactly. Sometimes we speak of natural 
proportions. It is like in any given setting, what percentage 
of people might have a disability in a given environment? You 
know, depending on the definitely of disability, 6 percent, 8 
percent, 10 percent; if you include older people, more. But the 
point is not forcing a segregation of a population by virtue of 
the label of disability.
    The Chairman. Thank you. And in some ways, it reminds me of 
the transition that we have gone through in special education 
where we try to integrate children with special needs into a 
regular classroom. It sounds like a similar approach.
    Mr. Meyer, you told a very inspiring story about Riley, and 
in the packet of information that you left with me this 
morning, I read all of Riley's story. And it is really 
wonderful how he progressed to take jobs of increasing 
complexity through the help of a job coach, as you said, and 
other supports. And that is a wonderful story. That is exactly 
what one would hope to see, and I appreciate your sharing it 
with us.
    Our state is a very large and rural state. What would you 
say are the biggest obstacles in rural areas in particular that 
are barriers to employment for adults with disabilities?
    Mr. Meyer. Am I live?
    The Chairman. You are.
    Mr. Meyer. Hot mic. So as you say, with any rural state 
like ours, transportation is a key factor and a key challenge. 
So, in particular, we see situations where there are 
individuals who are making progress like Riley did, rise to a 
certain level, and maybe stop qualifying for assistance with 
transportation, and then they really have no way to continue 
their employment. So there ends up being artificial cliffs that 
interrupt the progress that folks make. So transportation is 
key.
    The other part for us continues to be the development of 
workplaces where employers are open to employing people with 
intellectual disabilities. We have worked really hard 
developing this at Spurwink, and I think some of the examples I 
gave and some of the ones from Riley's own experience were 
about relationships that we have really nurtured with employers 
who have been fantastic. They have been really open to it. But 
others are not sure. You know, they need help in understanding 
it. They want to know that we are going to be there to support. 
We need more employers to be willing to engage with us around 
that. So the availability of employers, and access to 
transportation, are essential supports for folks in the 
workplace. And I would say that stagnant wages have made it so 
that we are not competitive on hiring and then we have trouble 
maintaining staff. So that is another barrier for us in our 
rural state.
    The Chairman. Thank you.
    Senator Casey?
    Senator Casey. Thank you very much.
    Jeff, I will start with you and ask you a couple of 
questions about your experience. You shared with us what you 
like about your job.
    Mr. Smith. Yes.
    Senator Casey. And it is good to hear that. And you also 
shared with us some of the things that your job makes it 
possible for you to do, whether that is going to restaurants, 
going on trips, being able to buy things that you want to buy, 
especially those that support your rock and coin collection, 
among others. These are things that are part of what we might 
describe as a full life, and that is why it is so important 
that you are providing this testimony today.
    I guess I wanted to ask you to think for a minute what your 
life would have been like if you were not able to have this job 
or any job and how you have felt--or I should say how would you 
have felt if you were not able to have the work that you have 
and if you could not, in fact, work? Can you imagine that, or 
can you give us a sense of that?
    Mr. Smith. Well, yes, I can imagine that. Well, of course, 
over the years--I have been with this group for 7\1/2\, almost 
8 years right now, and I have changed completely from--I was 
almost a know-nothing man, I can say, up to what I am now, I am 
a positive--you know, I am positive on almost every matter of 
the things that I do every day. And so I can say that if I did 
not have, you know, a job right now or if I did not have 
payment or if I did not have anything good for me, I would be 
inundated with sadness or inundated with malfunction or, you 
know, with difficult ways of getting around, because, you know, 
life today is no easy matter, as you know. I mean, whoa, there 
is a lot--I mean, I hear it all the time on TV on the news, on 
various programs, on various ways. I hear it from different 
people that, you know, it is so much involved. Just think of 
all the many ways around the United States that things are done 
differently by different people. And for one thing, the lesser 
talented people, you know, do not get the appreciation they 
need, but, you know, with my working hard and my--when I 
started working, I was, oh, I could not believe where I was, 
you know? I was working in Pennwalt Corporation in 
Philadelphia, and I was down at one end of the hallway, and I 
said to myself, ``I want to go to the other end of the hallway 
and see what is up there.'' So I went up there, and then I got 
up there, and I said right away, ``This is where I belong.'' So 
I stayed up there with the cooperation or with the coordination 
of the people from the floor, you know, that could help me out.
    And then I said to myself, ``The mail is not being put in 
any natural way.'' So I said, ``I will deliver the mail.'' So I 
started delivering the mail, and that is where our company has 
taken off from. Right now we have so much mail coming in daily, 
you know, we get like--oh, I will give you a fact--well, yeah, 
I could say we get at least 80 packages of mailing a day, 80 
packages of mail, and they are from all around the world, and 
they go to everybody--well, not everybody, but they go to 
certain places around the company. And they are delivered to 
the mail room, but then they are also delivered to the loading 
dock, which takes care of certain mail because it is either 
large or it is marked for different people that do not work 
where I work or, you know, do not work in the area that I work 
in, and so, but----
    Senator Casey. Well, you have got a busy job, right?
    Mr. Smith. Very busy, yes, but I do enjoy it. It is totally 
mindful and it is heart-warming, and it is very soothing to 
know that I am out there doing my part for the country and the 
country is doing its part for me.
    Senator Casey. Well, we are glad you are doing that, and I 
am glad you are here today to share that.
    Mr. Smith. Yes.
    Senator Casey. I will maybe follow up with Dr. Mank in a 
moment. But, Doctor, I guess--and I know I am almost out of my 
time, but the reauthorization of the Rehabilitation Act--that 
took place in 2014--included a definition of ``competitive 
integrated employment,'' that phrase that you referred to, for 
people with disabilities. It emphasized paid work. It is either 
at the minimum wage or the prevailing wage and work that takes 
place with others who do not have a disability.
    Why are both ``competitive'' and ``integrated'' important 
characteristics of employment for people with disabilities? And 
I am over time, so if you can be brief.
    Mr. Mank. Very briefly. ``Competitive'' is important 
because it is at full wage. We know one of the most likely 
characteristics of life in this country, if you have an 
intellectual or developmental disability, is poverty. And so a 
competitive wage is a requirement.
    ``Integrated'' wages, of course, working alongside where 
everyone else would do that kind of work. We would not think of 
segregating others by some other personal characteristic. Why 
would we in schools or in employment segregate on a 
characteristic called ``disability''?
    Senator Casey. Thanks, Doctor.
    The Chairman. Thank you.
    Senator Fischer, welcome.
    Senator Fischer. Thank you, Madam Chairman, and thanks to 
the panel today.
    One issue facing individuals with intellectual and 
developmental disabilities is having a reliable caregiver. More 
than 70 percent of individuals with these disabilities, they 
live with family members, most frequently their parents. The 
impact of these situations can adversely impact a caregiver's 
health. They have a higher prevalence of diabetes, high 
cholesterol, and arthritis.
    Ms. Heller, since you touched on this issue in your 
testimony, can you describe in a bit more detail the importance 
of having a reliable caregiver and how often this caregiver is 
a family member? And then if other panel members would like to 
answer, I would welcome that. Thank you.
    Ms. Heller. Right. Obviously, the family is the strongest. 
Even when a person does not live at home, families continue to 
have a really big role, and I could give you an example even 
with my own sister, who was languishing in a nursing home. She 
had developed some age-related conditions that were really bad, 
and she ended up in a nursing home, and I could not get her 
out. I finally was able to get her out of the nursing home, and 
I can tell you that without my advocacy, she probably would 
have died in that nursing home. So siblings and parents play a 
huge role in regard to caregiving.
    One of the aspects that I have been recommending and I know 
the AARP is very interested in also is making sure that the 
voices of families are included, both in health care and long-
term services and support, particularly as managed care 
organizations, that they really try to involve people, 
families, because families play such an important role. They 
also play a very important role in helping the person with the 
disability make decisions because often they need some help 
with that. With respect to self-determination, they also need 
support from families.
    Senator Fischer. Thank you. Yes?
    Mr. Meyer. Senator, if I could just add, just in 
conjunction with what you were saying, one of the ways that we 
approach our adult services as Spurwink is we refer to them as 
``adult and family services,'' really with the assumption and 
expectation that we strongly support family engagement. Even if 
we have professional staff that are providing primary care, 
family involvement is critical.
    And then there is the important nature of the long-term 
relationships. So many of the folks that we serve with 
intellectual and developmental disabilities thrive with 
consistent support over time. We have many staff that have been 
working with the same individuals for 5 to 10 years or more, 
and we always see the best outcomes for consumers when we are 
able to support that. That, of course, ties back to what I 
mentioned before about the importance of funding for these 
programs.
    Senator Fischer. When you talk about the programs that you 
have where it brings in the entire family, do you address 
health concerns for family members? And could you talk to us a 
little bit about that as well for the caregivers themselves? Do 
they seek your advice or do you reach out to them when you see 
maybe they are taking on too much responsibility? The weight of 
it all affects a caregiver's health, too.
    Mr. Meyer. In particular, aging and co-morbid medical 
conditions and those sorts of complications, we do. I mean, we 
have to be aware and part of the conversation is being aware of 
where the boundaries are. So if their son or daughter is our 
client, the parent may not be our client, but we develop 
relationships with them. Then we make sure that they are 
referred to appropriate medical or other kinds of supports and 
that we are attending to the levels of stress that they 
experience in those relationships. So we see that as part of 
our responsibility even while we try to make sure that we do 
not cross boundaries where we should not.
    Ms. Heller. I would like to add about a program that our 
center has done called ``Taking Care of Myself'' that Sandy 
Magana has headed up, and it is training promotoras, which is 
like peer parents that are Latino or African American, to go 
into the home of parents of people with intellectual and 
developmental disabilities and address health care and making 
sure they take care of their own needs also.
    Senator Fischer. Thank you very much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Warren?
    Senator Warren. Thank you, Madam Chair. I taught special 
needs children when I was much younger and just out of college, 
and when you spoke at the beginning of this hearing about the 
importance of making sure that everyone has opportunities and 
that everyone is treated with dignity, as Senator Casey did, I 
just want to say, yes, that is a measure of who we are as a 
people. And I very much want to associate myself with your 
comments on that. I think it is right. So I am glad you are 
holding this hearing today.
    In doing some research for today's hearing, my staff came 
across a few reports about working conditions of individuals 
with intellectual and developmental disabilities. In Rhode 
Island, Pedro, a 25-year-old man with an intellectual 
disability, spent three years sorting and packing buttons. 
Pedro's boss described him as an ``excellent worker.'' He was 
paid 48 cents an hour.
    In New York, workers with disabilities package 
pharmaceuticals at a nonprofit organization. They were paid 33 
cents an hour. The CEO, by the way, was paid more than 
$400,000.
    In Iowa, dozens of adult men with intellectual disabilities 
worked at a turkey processing plant. They began work every day 
at three o'clock in the morning, and they were housed in a 
crowded schoolhouse together. They were paid $2 a day.
    Now, Dr. Mank, you are an expert on the labor market for 
individuals with intellectual and developmental disabilities. 
Congress has passed labor laws, civil rights laws, and other 
laws protecting Americans with disabilities.
    It is 2017. Can you explain why wages this low are not 
illegal?
    Mr. Mank. I can explain it. I cannot defend it.
    Senator Warren. Could you turn on your mic there?
    Mr. Mank. I can explain it, but I am not defending it. The 
legislation, the original legislation, was passed in 1938 that 
allowed payment of subminimum wage. This was somewhat updated 
in 1966. But because of a section of the Fair Labor Standards 
Act, Section 14(c), it is perfectly legal to measure someone's 
productivity and say, ``You work at 50 percent; you get 50 
percent of the raise.''
    Having said that, it is often unnecessary when people are 
matched with the right kind of work. We have something--well 
over 250,000 people in the country. It is hard to know exactly 
because the hard count is on organizations that hold the 
certificates, of which there are more than 2,000.
    Senator Warren. I just want to make sure, though, that we 
are following this. I want to ask this question very clearly. A 
worker with a disability can be paid less than a worker without 
a disability for doing exactly the same job?
    Mr. Mank. That is correct.
    Senator Warren. Wow. You know, I do not think most 
Americans know that this kind of discriminatory treatment is 
perfectly legal. But I will bet that if they did, they would 
agree that individuals with disabilities ought to be paid 
fairly for their work.
    So, Mr. Smith, let me ask you, if I can--I want to thank 
you for coming before this committee today to share your 
testimony. And I hope we can take your comments into 
consideration as we make policy that will affect employment for 
people with disabilities. I understand that you are a mail 
clerk. Could you just say a word about what that job means to 
you?
    Mr. Smith. Ever since the beginning, when I was working at 
Pennwalt Corporation, right down 17th Street, I was--I thought, 
``Where am I going to go in this world?'' I started out in my 
job, and I thought, ``Where am I going to go? What is going to 
go on?'' But I wanted to go higher and higher and higher and 
work--you know, I did not know how high I would get, but, I 
mean, I wanted to get very high. And so right now, as I know, I 
am a part of human resources. I am also a part of the whole 
company, and I am a natural asset to it that is really helping 
me out in a lot of ways, and I am helping them out in a lot of 
ways. And I do see that the work that I am doing there is very 
demanding, but it is not too much for me. I mean, I do not feel 
any difference in it than other work because it is--it is 
really--okay, it is hard, yes. I mean, first of all, my memory 
is good, and I have a large--knowing whereabout people sit, 
where people are throughout the company. I mean, we have had 
many moves and changes throughout the company, and I am just 
able to pick up on where the people sit and where they--and so 
I am able to do my work that way.
    Senator Warren. Could I ask you, do you think Americans 
with disabilities should be paid less than their coworkers for 
doing the exact same jobs?
    Mr. Smith. No. I really do not, because they deserve--see, 
they are people, they are American people. They are truly a 
part of our nationality, and they serve a purpose. They serve a 
natural purpose on this land. A lot of people around me--I am 
not saying anybody here, but, I mean, a lot of people do not 
perceive as good or as nourishing or as helpful to us.
    Senator Warren. I really appreciate that. Thank you, Mr. 
Smith. I am over my time, but if I could make one point since I 
will not have time to ask the question, that the Advisory 
Committee on Employment for Individuals with Disabilities that 
Dr. Mank chaired recommended that Congress pass a well-
designed, multi-year phase-out of the subminimum wage. It is 
pretty amazing to me that in 2017 the law in America still 
allows employers to exploit some workers with disabilities, 
paying them pennies on the dollar. And I support phasing out 
the subminimum wage and look forward to working with my 
colleagues on this committee.
    Thank you.
    The Chairman. Thank you.
    Senator Tillis?
    Senator Tillis. Thank you, Madam Chair. I am sorry I am 
late. We had a conference with the Senate Armed Services 
Committee. I am a conferee.
    This is actually a subject matter that I have spent a fair 
amount of time with. My wife serves on a board for an 
organization in the middle part of the state called 
``Industries for the Blind,'' where literally blind persons, 
ironically, are making eyeglasses for persons with sight. In 
fact, if you come to my office, you can see we have got a 
display dedicated to it.
    I have also spent some time in western North Carolina where 
we have an organization called Industrial Opportunities Inc. 
(IOI), which has persons with disabilities doing just 
incredible work, including sewing and making products that are 
ultimately sold to the DOD. In fact, tourniquets that go into 
almost every EMT facility now was initially a collaboration 
between a firm or special operator and folks at IOI.
    And then I personally have served on a board that oversaw 
Lifespan, which is a work skills training entity in the middle 
part of North Carolina that actually does in-source work to 
give people job skills and gives them an opportunity to go work 
with the businesses.
    And, finally, just about three weeks ago, I was at a place 
called Bitty & Beau's, and it is a coffee shop in Wilmington, 
North Carolina, that has gotten a lot of attention recently. 
Thirty-nine, the vast majority of their staff, are persons with 
disabilities. And if you want a battery charge, go to Bitty & 
Beau's and get a cup of coffee first. It is a great cup of 
coffee. Rachael Ray, it is her official coffee now. They are 
about to open a facility in Charleston.
    I tell you those stories to tell you that really getting in 
and seeing how these operations work and the challenges that 
they have, you have to really understand the inner workings, 
how the economics work, how they can actually create a business 
model that is sustainable because, quite honestly, if we want 
to attack the challenge of the disproportionately high number 
of people who are underemployed or unemployed, persons with 
disabilities, we have got to be smart about it, and we have got 
to work with businesses to be absolutely certain that we are 
compensating persons for the skills that they do, they need to 
be paid whatever the market rate would be for those skills, 
regardless of who is doing it.
    By the same token, I think we have to take a look at how 
many of these--and I would probably point to IOI out in western 
North Carolina, about how they are also trying to provide a 
service and really Lifespan, not only for those who can work 
and be in compensated jobs, but enrichment centers and 
engagement with other persons with more severe disabilities 
where they may not have that opportunity in the community but 
for these businesses, these private sector enterprises, that 
they may be in underserved communities.
    So we have to get it right and not necessarily jump to an 
extreme to where we pass a well-intentioned law that, on the 
one hand, looks good on paper but, on the other hand, creates 
barriers so that these private sector solutions can no longer 
thrive and grow, like the Bitty & Beau's that is in Wilmington 
and now about to open one up in Charleston.
    So then that is a lead-in to my question. How do we as a 
matter of public policy look at the things that we should be 
doing to incentivize more Industries for the Blind, more IOIs, 
more Lifespans and more Bitty & Beau's versus a well-
intentioned person who thinks it is now time to nationalize 
this and make it a big Government-regulated entity which will 
almost certainly reduce the leverage and the opportunities for 
persons with disabilities? That is the only question I have. I 
would like a response from anybody here who would like to talk 
about it.
    Mr. Mank. I would be happy, Senator, to answer your 
question. I think at the end of the day, employment for anyone, 
and certainly employment for people with disabilities, is about 
being matched up to work you are interested in and can do well. 
And I think part of what is incumbent on communities, society, 
and businesses is to discover one person at a time, what are 
the interests and talents that a person has and can we get them 
matched up with that work.
    I guess I would argue that many of us, maybe most of us in 
this room could name 15, 20, 50 jobs that we would not be very 
good at, and we spend a fair amount of time trying to get 
matched up with work that suits us, that we can be both 
productive, contributing, and happy. And sometimes I think with 
people with disabilities it takes a little while to discover 
that, and that it is worth the discovery to try to get that 
match right.
    Mr. Meyer. If I could, Senator, add to something that I had 
said earlier, part of Spurwink's approach has been the 
cultivation of relationships with local businesses. So we spend 
a lot of time helping raise awareness, helping a business to 
feel comfortable bringing in somebody with an intellectual 
disability when they have not thought of it in advance, and so 
there really is a partnership that develops. In terms of a 
model or a direction for this, I would say that local 
partnerships are critical being able to help increase 
understanding and acceptance of people.
    And then I think to your point, Dr. Mank, the whole fit for 
individuals and having some patience, but also a process to be 
able to help folks identify the jobs that are a good fit for 
them, is part of the solution.
    Senator Tillis. Well, having been Speaker of the House 
before I came up here 2\1/2\ years ago, one thing I am really 
encouraged to see, if you go out and you go into the 
community--and I have literally gone--we call it Manteo to 
Murphy, that is the span of the state. I have literally been in 
several facilities across the state, and the most inspiring 
ones that I have seen are when private enterprise, state 
government, and local government entities and organizations 
supporting persons with disabilities come together. And I think 
our role is to figure out how we can facilitate that, not 
supplant it, and be very mindful of well-intentioned policies 
that could ultimately have the reverse effect in terms of the 
opportunities, and we should have increased opportunities for 
persons with disabilities.
    Thank you all for being here.
    The Chairman. Thank you very much, Senator Tillis.
    I want to note that Senator Gillibrand was here and very 
patiently waiting but had to leave, and Senator Nelson as well.
    Dr. Heller, I want to go back to the issue of transitions. 
We all hope that the number of people with disabilities will go 
up--the number who are working will increase. And that means 
that we are all of a sudden going to have many more individuals 
with disabilities who have worked many years, like Mr. Smith, 
who has worked nearly 40 years, who are going to be facing the 
issue of transitioning into retirement.
    So what are the features of a successful transition into 
retirement for individuals with disabilities? This is not 
something we thought of probably 20 years ago.
    Ms. Heller. I think, first of all, there needs to be some 
education and some planning around it, as we all need to do. 
Actually, a while ago, we developed a curriculum called 
``person-centered planning for later life'' for people with--at 
that time we called it ``mental retardation.'' And the main 
idea was to--we really adapted it from retirement curriculums 
for the general population--but looking at how to try to find 
out what people really want, number one. And as we know, you 
get older, you get more and more life yourself, and more 
different than others, and I think we will see with this 
population also in terms of really coming up with 
individualized approaches and looking at who the support 
network is, doing training with the people with disabilities 
about various options. Sometimes they do not know what is out 
there, what is possible. Looking at options like part-time for 
a start. Transitioning the retirement into other kinds of--and 
sometimes it is a real issue for people who live, for example, 
in group homes where they do not have staff around during the 
day, and figuring out how to deal with that transition. Those 
are some of the issues that are really important in terms of 
planning for retirement.
    The Chairman. Thank you.
    Mr. Smith, you have worked nearly 40 years. Work is clearly 
a very important part of your life and has been really helpful 
to you in so many ways, not just financial but in the 
friendships that you have made and the confidence that you have 
built. Are you worried about retiring?
    Mr. Smith. No. I find retirement right now is just another 
point of life, you know, another way of life, because when I 
retire, I am going to build my own house, and I am going to 
move in with my fiancee, and we are going to live a fine life 
together. But there will be things that I will be doing. You 
know, I mean, I am not going to sit still all by myself and not 
do anything because, no, I believe that getting out and working 
in this world is far better than sitting down and doing 
nothing, you know, because, I mean, there is so much that you 
can do out there today. And I know I can do a lot for the 
world, and I have done a lot for the world, and I want to 
continue doing more for the world that I can.
    The Chairman. Thank you.
    Senator Cortez Masto? By the way, Mr. Smith, I think you 
are going to be just fine in retirement.
    [Laughter.]
    Senator Cortez Masto. Thank you. First of all, let me just 
say thank you for this important hearing. I had another hearing 
on Indian Affairs so I could not be here for your testimonies, 
but thank you for the written testimony. It has been very 
helpful.
    Let me start with Dr. Mank and Dr. Meyer. Just today I had 
the opportunity to meet with some constituents and persons with 
disabilities from Nevada, and they told me very clearly that 
they want to work and provide for themselves. However, one 
issue they had was finding reliable transportation to get them 
to their jobs on time and back again. Even when they are able 
to receive state-funded transportation, it is often unreliable, 
causing them to be late to work, and sometimes potentially 
costing them their jobs.
    What are some of the best practices you have seen by states 
and local government to get people with disabilities the 
transportation that is important for them to be mobile and 
independent?
    Mr. Mank. Well, thank you for the question. I am certain it 
is a problem in Nevada, and I am sorry to say it is a problem 
everywhere; that reliable transportation for people that do not 
drive, whether by virtue of disability or poverty, do not have 
a car, public transportation, getting to work on time is a 
major problem. So it certainly is a problem where I come from 
in Indiana. We have many rural parts of the state. Even in the 
cities there are limited public transportation routes.
    I do not think the disability community is going to solve 
this one because it is a community problem, much broader than 
the number or percentage of people with disabilities.
    I lament the problem in my state and in other places that I 
have visited. I have seen occasions when disability-oriented 
nonprofits actually took over a small town's transportation 
system themselves in the interest of people with disabilities 
and people who were older or poor to try to be something of a 
measure of responsiveness. But I do not have a solution, and I 
do not know where one exists to the extent that you speak.
    Senator Cortez Masto. And let me open it up to the other 
panel members. Are you aware of any best practices or what we 
can be doing at the federal level to help address the 
transportation needs?
    Mr. Meyer. A few minutes ago, I did talk about exactly this 
barrier as one of the key issues and challenges for people to 
maintain employment for individuals with intellectual and 
developmental disabilities. So, yes, in our rural State of 
Maine, transportation is uneven and cannot be relied upon At 
this point we do not have good solutions. We try to cobble 
together the best supports we can. We work with family members. 
We work with employers who are creatively accommodating 
transportation schedules. But it is very piecemeal, and not 
adequate.
    Senator Cortez Masto. Okay. I appreciate that. Thank you. 
That is disheartening. This is an issue we need to address. 
Literally, I talked to a young man from Nevada who is able to 
get to work, but that is all he can do because there is a point 
system, and he can use his points to get to work and home. But 
then if he wants to go out and visit friends or go to a movie, 
he does not have transportation. So I think this is something 
that really we should be looking at to address in working with 
so many across the country and in our communities to address 
it. I appreciate that. Thank you.
    Ms. Heller. I just wanted to add that it is important that 
public transportation is accessible, and including cab 
services. I know that in Illinois there has been a lawsuit with 
Uber to make sure that they have accessible rides available. 
That is another way to go at it.
    Senator Cortez Masto. Thank you. Thank you. I appreciate 
the conversation and really appreciate you being here today and 
working with us. Mr. Smith, it is a pleasure to have you here. 
All of you, thank you so much for your willingness to come to 
Washington and work with us and help educate us as well. So 
thank you.
    Mr. Smith. You are welcome.
    The Chairman. Senator, I am just going to interject because 
the transportation issue is such a major barrier. In Portland, 
Maine, there is a program that is called ``ITN,'' and it was 
started originally by a volunteer whose child was hit and 
almost killed by an older driver who should not have been 
driving but really had no other choice as far as how to get 
around. And she has built up an extraordinary program. Back in 
the good old days of earmarks, I was able to get her a little 
bit of help in getting it off the ground. But what people do is 
turn in their cars in some cases, and volunteers provide the 
transportation, they do the driving. It is mainly aimed at 
seniors, but a lot of seniors have disabilities and a lot of 
them are not able to see or have mobility challenges. So I 
think it also would apply to the population of individuals with 
disabilities, and it is really this wonderful program.
    There is often a very small charge for the ride, but it is 
something that has been replicated in other states, and I will 
see that we get you some information about it. It is something 
that I wish we could expand to rural Maine because it is really 
more in the urban southern part of the state. And since you two 
have a state with a lot of rural areas, and a big state, I can 
imagine that this is a real challenge as well. But I just 
wanted to mention that before calling on Senator Casey. Thank 
you.
    Senator Casey. Thanks, Madam Chair. I know we have to wrap 
up soon. I guess I wanted to end with thanking the panel for 
your testimony. But if you could encapsulate just briefly what 
you hope we would do to move forward, because we have set forth 
a lot of challenges that folks with disabilities face in the 
context of employment, and there might be a long list of action 
items or there might be a shorter list in terms of your own 
perspective. But what do you think is the most important thing 
we can do to remove some of these barriers? It does not have to 
be a long list, although it could be. If you want to supplement 
it in writing, you can do that. But I just want to give 
everyone a chance to give kind of their own summary of what we 
could to remove those barriers. I will just go left to right. 
Dr. Mank?
    Mr. Mank. Thank you, Senator. The first thing that I would 
say is to look at the funding contingencies for employment-
related programs now and seek incentives to produce employment 
outcomes. We spend a lot of money on many kinds of services, 
day services, even employment services. But effectively getting 
that is creating incentive to get outcomes, namely, integrated 
jobs. Thank you. That is the first thing I would do.
    Senator Casey. Thank you.
    Ms. Heller?
    Ms. Heller. I think it is important to make sure that we 
have enough----
    Senator Casey. Turn on your mic.
    The Chairman. Could you turn your mic on, please?
    Ms. Heller. I think it is important that we have enough 
financing for assistive technology for people as they age and 
universal design and inclusive transportation that we have just 
been talking about.
    I would also like to emphasize support for families, and I 
know this is a big priority area now, to make sure that there 
is funding and also to endorse, for example, Lifespan Respite 
Act programs, as one example, or the National Family Caregiver 
Support Program is another example. Thank you.
    Senator Casey. Thank you.
    Mr. Meyer?
    Mr. Meyer. Thank you. I would encourage the committee to 
launch from the good work of today to continue awareness 
raising and to continue moving to a shift in understanding 
across our country about employment for people with all sorts 
of disabilities and certainly with intellectual and 
developmental disabilities.
    And then from my perspective, while I really liked Dr. 
Mank's suggestion, I also think that not only should we make 
sure that we are spending the money wisely, but we also should 
make sure that we are keeping up with very tough job markets 
and be able to pay staff in a competitive way to allow them to 
maintain a career in supporting and assisting with vocational 
success.
    Senator Casey. Thanks very much.
    Jeff, any suggestions?
    Mr. Smith. Well, I have been thinking about that, and it 
dawned on me that this country is so well put together, there 
is so much about it, you know, that we can say is ``A-1''. But 
as I know it, from what has been said here today and from what 
I have learned from the past, the care and everything given to 
these people, given to needful people, is not totally helpful 
and is not totally responding. So I think in some way we ought 
to all step out and do something about it rather than sitting 
on our cans and not doing what we think, you know, can be done 
for these people, because, you know, I have a fiance here who 
had a deeper problem when I met her, and now she has stepped up 
to a much better way of life. And I know a lot of people that I 
have been friends with over at her apartments have done that 
same thing, too. But they are in a different needful way. But 
there is not much--well, there is things being done, but, I 
mean, there is not as much as we can do for them around this 
country.
    Senator Casey. Well, we hope today we have come up with 
some new ideas and, if not new ideas, at least the examination 
of some of the problems. Thanks for your testimony.
    Mr. Smith. You bet.
    The Chairman. I, too, want to thank all of our witnesses 
today for this excellent hearing. I think you have helped raise 
awareness, as Mr. Meyer suggested, that individuals with 
disabilities can play such an important role in the workforce, 
and we have only to listen to Mr. Smith's experience, where he 
reorganized the entire mail delivery system and improved it, to 
know that that is the case. And I believe that individuals with 
disabilities just like everyone else can thrive in work 
environments in which their individualized strengths are 
accommodated and appreciated. And we are going to see the 
employers call more and more on the population of individuals 
with disabilities because they need that talent, they need 
those workers.
    We have also learned more about the transition that more 
and more people with disabilities are making between work and 
retirement, not an issue that years ago we even thought much 
about. I am still troubled by the poverty rate being so high 
among that population. But if we can have more and more 
individuals working for 40 years, that issue will also greatly 
improve.
    So thank you all for being here today, for increasing our 
understanding, and for helping us chart a path forward for a 
better life for those with disabilities, whether they were born 
with them or acquired them later in life.
    This hearing record will remain open for another week until 
Friday, November 3rd, in case any committee member has 
additional questions for the record.
    This concludes the hearing. Thank you for being here.
    [Whereupon, at 3:59 p.m., the Committee was adjourned.]

    
      
      
=======================================================================


                                APPENDIX

=======================================================================

    
      
=======================================================================


                      Prepared Witness Statements

=======================================================================


 Prepared Statement of David Michael Mank, Ph.D., Professor Emeritus, 
                Indiana University, Bloomington, Indiana
    Good morning, I am David Mank, Ph.D., Professor Emeritus of Indiana 
University. I am formerly the Director of the Indiana Institute on 
Disability and Community and Professor in Special Education and 
Rehabilitation. The Institute is one of the nation's university centers 
for excellence in developmental disabilities research, education and 
service. The Institute is a member of the Association of University 
Centers on Disabilities (AUCD). As a national resource, AUCD's mission 
is to advance policies and practices that improve the health, 
education, social, and economic well-being of all people with 
developmental and other disabilities, their families, and their 
communities.
    Late in the year of 2014, I was appointed by the Secretary of 
Labor, to the Advisory Committee on Increasing Competitive Integrated 
Employment for Individuals with Disabilities (ACICIEID). This committee 
was created in the Workforce Innovation and Opportunity Act of 2014 
(WIOA). Subsequently, I was elected Chairperson by the committee. In 
September 2016, this committee completed its work and delivered its 
final report and recommendations to the Secretary and to Congress. I am 
submitting this committee's report as a part of my written testimony.
    WIOA established employment of people with disabilities as a 
national priority. The goal of WIOA is to increase employment of people 
with disabilities in competitive integrated employment (CIE) and 
significantly limit placements in subminimum wage sheltered workshops. 
WIOA defines CIE as a job that (1) pays people with disabilities at 
least the minimum wage and not less than the wage paid to people 
without disabilities for the same or similar work; (2) is performed in 
a location where the employee interacts with co-workers without 
disabilities; and (3) provides workers with disabilities the same 
opportunities for career advancement as their non-disabled co-workers.
    WIOA was passed by Congress in 2014. It was also the subject of a 
bipartisan and bicameral congressional hearing held earlier this month. 
The congressional briefing was sponsored by Senator Bob Casey and 
Senator Maggie Hassan, in cooperation with the House of Representatives 
Bipartisan Disabilities Caucus, Chairs Representative Gregg Harper and 
Representative Jim Langevin.
    We know that people with disabilities want good jobs, in integrated 
settings, and with good wages. We know that people with disabilities 
want to pursue careers. We know that people with significant 
disabilities are fully capable of working productively in CIE when 
provided with supports individualized to each person's talents and 
needs. This has long been established in research and in emerging 
practice. In addition, in a research study in Indiana, when asked, two 
thirds of the adults in sheltered workshops are interested in CIE. 
Research shows that when people with disabilities leave day programs 
and sheltered work settings, they earn more money, are more fully 
integrated in communities, work in a greater variety of jobs, pay more 
taxes, and receive more employer sponsored benefits. Research studies 
about the preferences of people with intellectual or other 
developmental disabilities in sheltered workshops show that a large 
majority of these individuals would prefer competitive integrated 
employment. One such study is submitted with my written testimony.
    WIOA's major substantive provisions include:

    <bullet>  Significant limits on the use of subminimum wage 
sheltered workshops, particularly for transition age youth. WIOA 
requires that anyone under 24 explore and try CIE before they can be 
placed in a subminimum wage setting, prohibits schools from contracting 
with subminimum wage providers, and requires at least annual engagement 
of anyone in a subminimum wage setting to discuss CIE alternatives.
    <bullet>  Requires state agencies--including Medicaid, intellectual 
and developmental disabilities (I/DD), vocational rehabilitation, and 
education--to enter into cooperative agreements to prioritize CIE.
    <bullet>  Requires that at least 15 percent of vocational 
rehabilitation funding be used for pre-employment transition services.
    <bullet>  Extends post-employment services from 18 to 24 months.
    <bullet>  Requires that at least half of states' supported 
employment grant funds be used for youth (up to age 24) with the most 
significant disabilities.

    WIOA stands is a rich line of national developments, the 
Rehabilitation Act, the 1998 Workforce Innovation Act and the Americans 
with Disabilities Act, and more, that establish employment and full 
integration of people with disabilities in all aspects of community 
life.
    In addition to WIOA's substantive provisions, the law also created 
a Federal Advisory Committee on Increasing Competitive Integrated 
Employment for Individuals with Disabilities. WIOA charged the 
committee with developing findings, conclusions and recommendations for 
the U.S. Labor Secretary and Congress on: (1) ways to increase 
employment opportunities for people with intellectual or developmental 
disabilities (I/DD) and other individuals with significant disabilities 
in CIE; and (2) the use of subminimum wage certificates under 14(c) of 
the Fair Labor Standards Act (FLSA) for employing people with I/DD and 
other significant disabilities, including ways to improve oversight of 
such certificates. The committee was comprised of federal official 
members from key agencies representing four federal departments, 
representatives of national disability advocacy organizations, self-
advocates, providers of employment services (both supported employment 
and sheltered workshop providers), employers, and academic experts.
    The committee issued its final report to the Labor Secretary and 
Congress on September 15, 2016. The report was issued following ten 
public meetings held between January 2015 and August 2016. Hundreds of 
people testified or submitted written comments to inform the 
committee's work. The committee received more than 2,000 letters, e-
mails, and video messages about employment of people with disabilities 
and the work of the committee. The committee was attentive to the broad 
scope of the ideas and comments from the public through the course of 
its work.
    In accordance with the rules governing federal advisory committees, 
the findings, conclusions and recommendations contained in the final 
report were developed by consensus of the committee. This committee 
report is especially important in several ways. First, the committee 
was comprised of individuals outside and inside the Federal Government, 
representing a broad range of expertise and perspectives. This 
committee was representative of many of the perspectives in the 
disability community. As such, different, even conflicting perspectives 
were represented in the work of the committee. Second, as I indicated, 
the final report and recommendations represent the consensus of the 
committee. All of the recommendations represent the consensus of the 
entire committee and were issued without objection. Third, the work of 
the committee was time limited. That is, as created by WIOA, the 
committee was tasked with developing and agreeing on recommendations in 
less than a 2-year time period.
    The committee's report emphasizes the need to build the capacity, 
in communities and states across the country to deliver competitive 
integrated employment to individuals with intellectual or developmental 
disabilities and other individuals with significant disabilities.
    I will draw your attention in particular to 6 key aspects of the 
committee's report focused specifically on what the Federal Government 
and Congress can do to increase the number of real jobs in integrated 
settings for people with disabilities.
1. Align funding of employment services with competitive integrated 
        employment outcomes.
    This includes making adjustments in the ways employment services 
are funded to create incentives for employment outcomes. This can 
include changes in the Medicaid Waiver program, to increase the federal 
match for employment as well as creating milestone and outcome payment 
structures. There already exist, in CMS, methodologies (such as Money 
Follows the Person (MFP)), which focus on priorities and outcomes. And, 
CMS has already begun investigating payment based on employment 
milestones and outcomes.
2. Create incentives to states to make CIE a priority and build 
        capacity to deliver CIE.
    This means creating state grants as incentives and to develop the 
capacity in local communities to develop and support organizations that 
assist people with disabilities to get and keep competitive and 
integrated jobs. This will need to include training and technical 
assistance to local organizations as well as investment in the 
infrastructure in states that provides employment services. This 
includes personnel preparation and development as well as assistance to 
organizations to transform from sheltered workshops and day programs to 
organizations that deliver CIE outcomes to people with significant 
disabilities. Examples already exist, that can be extended and 
replicated, of states working to develop increased capacity to deliver 
CIE. The Federal Government and Congress should invest in this capacity 
building in states across the country to deliver CIE outcomes.
3. Address the issue of the payment of sub-minimum wages.
    After considerable investigation and discussion, the committee 
crafted a recommendation specific to the issue of sub-minimum wages.

    Congress should amend Section 14(c) of the FLSA to allow for a 
``well-designed, multi-year phase-out'' that results in people with 
disabilities entering CIE. Along with this legislative change, there 
should be oversight of the phase-out through increased data collection. 
In addition, there should be the appointment of a federal interagency 
taskforce to develop and oversee a plan for phaseout that considers the 
mandates of WIOA regarding 14(c), resources for technical assistance, 
measures to mitigate unintended consequences of phaseout, and 
safeguards to ensure people currently under 14(c) certificates are 
engaged and equipped with information and the opportunities necessary 
for understanding options and making informed choices. The U.S. 
Department of Labor should also engage in stronger enforcement of sub-
minimum wage certificates.
4. Establish an interagency commission or working group to establish 
        guidance and technical assistance to states to deliver CIE.
    Federal agencies should convene a cross-agency working group to 
develop policy guidance and technical assistance on integrated day 
services and other wraparound supports, with the goal of:

    <bullet>  Clarifying that integrated day and wraparound services 
are intended to maximize and not displace CIE
    <bullet>  Identify best practices in integrated day and funding 
strategies
    <bullet>  Clarifying that integrated day services should not be in 
a facility or require a program schedule
    <bullet>  Clarifying how federal funds can be used to promote CIE 
and natural supports in integrated workplaces.

    This means establishing a working group to turn the recommendations 
of the committee into an implementation plan of national scope that 
includes specific tasks, roles, responsibilities, timelines and 
resources needed to expand CIE on a national scale. This can also 
include attention to aging citizens with disabilities and the need for 
integrated supports and services for older citizens with disabilities, 
or retired individuals to participate in community life in the same 
ways and in the same community spaces as other older or tired citizens.
5. Provide assistance and incentives to the business community to 
        employ people with significant disabilities.
    This means creating a national campaign about the ability of people 
with significant disabilities to work productively in CIE and about the 
benefits of a diverse workforce and of hiring people with disabilities. 
In addition, the Federal Government and Congress should update and 
amend tax credits and other incentives to employers who hire and employ 
people with significant disabilities.
6. Make changes in the AbilityOne Program so it aligns with modern 
        disability and employment policy.
    AbilityOne is a federal set-aside program that requires all 
federal agencies to purchase certain supplies and services from 
agencies that employ people with disabilities. In Fiscal Year 2014, 
AbilityOne awarded approximately $2.8 billion in contracts. Agencies 
who are awarded AbilityOne contracts must ensure that at least 75 
percent of the labor hours necessary to complete the contracts are 
completed by people with disabilities, and they may pay subminimum 
wages to people working on these contracts.
    The committee found that although the AbilityOne program could be 
powerful in creating opportunities for CIE for people with significant 
disabilities, the design of the current program actually inhibits 
increasing those opportunities. The barriers include: (1) potential 
conflicts of interest in determining who is eligible to participate in 
AbilityOne contracts because the agencies function as both the 
employer and service provider; (2) the 75 percent contract hour 
requirement in practice ends up segregating people with disabilities 
from the mainstream workforce; (3) the lack of a requirement or 
expectation that AbilityOne contract work offers a path to CIE with 
mainstream employers; and (4) that the AbilityOne Commission, which 
oversees the program, was not designed to ensure the program aligns 
with the goals of CIE in federal law.
    To address these findings the committee recommended that Congress 
amend the statute authorizing the AbilityOne Program, the Javits-
Wagner-O'Day Act (JWOD), to align with modern disability laws by 
requiring CIE be a goal of participation in the AbilityOne program. 
This needs to include significant research and development of new and 
innovative strategies to align AbilityOne with the ADA and other 
modern disability policy, and doing so in ways that does not create 
unintended consequences.

    The over-arching theme of our report is building the capacity to 
deliver competitive and integrated jobs to people with disabilities in 
communities, large and small, across the United States.
    In order to deliver CIE in communities nationwide, we need 
organizations, and a skilled workforce fully capable of providing 
employment services that result in CIE outcomes. And, in the same way 
competitive integrated employment for people with disabilities mirrors 
typical employment for any citizen, other services and supports should 
also represent what is typical for others in any community. This is 
also true for those returning to work. Older people with disabilities 
nearing retirement will need supports to participate in community life 
in the same ways and in the same places as their same age peers. These 
supports must also be provided in fully integrated settings.
    I will end my testimony where I began. We know that people with 
disabilities want good jobs, in integrated settings, and with good 
wages. We know that people with disabilities want to pursue careers. We 
know that people with significant disabilities are fully capable of 
working productively in CIE when provided with supports individualized 
to each person's talents and needs. We know that when people with 
disabilities leave day programs and sheltered work settings, they earn 
more money, are more fully integrated in communities, work in a greater 
variety of jobs, pay more taxes, and receive more employer sponsored 
benefits.
    Thank you for this opportunity to testify today.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
   Prepared Statement of Eric Meyer, LCSW, MBA, President and Chief 
                  Executive Officer, Spurwink Services
    Chairman Collins, Ranking Member Casey, and distinguished members 
of the Senate Special Committee on Aging. Thank you for the opportunity 
to testify today. I am Eric Meyer, President and CEO, of Spurwink 
Services in Portland, Maine.
    Long before the closure of Maine's only institution for individuals 
with intellectual disabilities, Spurwink recognized the importance of 
connection to community, and began providing integrated services 
outside the confines of segregated institutions for people with 
Intellectual and Developmental Disabilities (IDD).
    Spurwink began with one house serving eight boys on Riverside 
Street in Portland in 1960. The developmental needs of the boys could 
not be met at home or in public school, and the roots of Spurwink were 
planted. Today Spurwink serves 8,300 people each year through the good 
work of more than 900 employees throughout the state. Spurwink's 
mission and vision remain the same: providing exceptional and evidence-
based behavioral health and education services for children, adults, 
and families with disabilities so that they can lead healthy, engaged 
lives in our communities. Whether it's a preschooler with autism in 
Saco, a teen with a trauma history in Skowhegan, or an adult with 
intellectual disabilities in Portland, Spurwink's clients are offered 
dignity, respect and a chance to build a better future.
    We offer special education schools and residential programs in four 
hubs across the state for children and youth; residential programs for 
adults with developmental disabilities in southern Maine; and a wide 
array of outpatient clinical services and supports in homes, public 
schools, primary care offices, and in the community. At Spurwink our 
therapeutic model is built on preparing young people with disabilities 
for a successful transition into adulthood, and for adults with 
disabilities to live healthy, engaged lives in the community. Our 
person-centered planning model is driven by the client and their 
family--creating individualized goals, planning with their team where 
they'll live, the type of work to pursue--all informing the supports 
our team will provide to help them meet their goals. It is not about 
Spurwink doing something to or for our clients--it is about Spurwink 
supporting clients to meet these goals. People with disabilities can 
and do work, and we believe it is not only the role of Spurwink, but of 
our country, to support adults with IDD to live meaningful and 
productive lives in the community.
    How do we do this? Through an array of services that help support 
people with IDD in the community. We serve many young people who are on 
the cusp of adulthood. They attend our schools, live in our residences, 
and see our clinicians. But the reality is that between the ages of 18 
and 21, many will age out of the safety and security offered at 
Spurwink. Resources for adult behavioral health care in Maine have been 
greatly reduced. We have responded to that gap by working hard to 
prepare students for a successful transition to adulthood. It involves:

    <bullet>  Education, including a high school diploma, GED or 
college prep;
    <bullet>  Therapy and supports to address developmental challenges, 
promoting family, friends and community connections;
    <bullet>  Practical life skills such as budgeting, healthy eating 
habits, and self-care; and
    <bullet>  Pre-vocational training to prepare to be a productive, 
independent member of the Maine workforce.

    While few of our clients go on to higher education, many benefit 
from learning a trade or skill. Our small engine repair program based 
at our Chelsea campus gives students an opportunity to work on tractor 
motors, small boat engines, and snow blowers for local neighbors and 
businesses. In this experiential learning setting, students learn not 
only practical skills in small engine repair, but about responsibility, 
perseverance, patience, and cooperative work. They build confidence in 
themselves, and that confidence translates to all parts of their lives.
    Riley, one of our former students with autism in Portland, started 
his career journey at in-house school jobs, moving on to community-
based training folding laundry at The Cedar's Nursing Home, shelving 
and alphabetizing books at the Falmouth Library, and preparing orders 
for distribution at Planet Dog Warehouse. After graduation he 
successfully worked in the warehouse at Micucci's Wholesale Foods, Inc. 
His parents shared, ``The Spurwink vocational program exposed our son 
to a range of work environments and responsibilities with the full 
support of a job coach, which was not available in our public school. 
He was able to build work skills and confidence thanks to the Spurwink 
vocational team's experience.''
    Spurwink does not receive state or federal funding for these pre-
vocational programs, yet we are committed to making them available. We 
believe that it is absolutely crucial that students leave Spurwink with 
the skills and experience needed to lead healthy and productive lives.
    We also believe that makes good economic sense for the State of 
Maine. It's no secret that recruitment and retention of employees is a 
major priority area for Maine businesses, Spurwink included. We are the 
oldest state in the nation and need to ensure our businesses grow. We 
do this by preparing our young people to join the workforce and 
offering them appropriate training, which is crucial to economic 
development in our State. Young people who are employed in appropriate 
work are more stable financially and less likely to require additional 
economic supports in adulthood.
    Our adult programs support the principle of ``aging in place'', 
ensuring that adults with disabilities age in the community safely, 
comfortably, and as independently as possible. As mentioned earlier, 
this is particularly poignant given that a sizable portion of the older 
adult population we serve were at one time residents of the Pineland 
Center, where people with disabilities were institutionalized in Maine 
until the early 1990's. We in Maine are proud to now have community 
options for adults with intellectual disabilities, and Spurwink and 
other agencies in the state continue to focus on supporting individual 
needs and desires so that the pendulum of care never swings back to 
large institutional settings, like Maine's Pineland Center, once 
housing 1,700 people.
    For our adult population, ages 18 to 84, Spurwink provides 
residential and community supports. Key to our services is solid social 
support, a home to live in, and having meaningful activities and work. 
We believe in the importance of self-determination, individual choice, 
and the dignity of work. Our aim is to increase or maintain an 
individual's ability to be a successful, contributing, and accepted 
member of the community. This includes access to continuing education 
and/or meaningful employment, a place to call home, robust community 
involvement, and other components of a meaningful life. Without this, 
there is no community integration. Our services include:

    <bullet>  Community case management providing advocacy and support 
to help individuals achieve their goals.
    <bullet>  Residential services where caring and committed staff 
provide support services within a home, helping individuals engage in 
their communities, develop social relationships, learn daily living and 
personal care skills such as shopping, doing laundry, cooking and 
planning menus.
    <bullet>  Community supports that develop life skills and increase 
opportunities for community involvement.
    <bullet>  And, where employment is the goal, partnering with local 
agencies and businesses to provide employment supports that help people 
find and maintain work to move them toward greater independence.

    Employment should be an option for all who want to, and can work, 
and it is never too late to open this door. Robert, 57, has a mild 
intellectual disability and mental health challenges. He spent many 
years in a group home setting, and had dabbled in employment, but 
intrusive thoughts and lack of focus always led to dismissal. Many 
thought his unrealistic expectations would get in the way of his 
workforce success. Robert made the decision to move into a Spurwink 
shared living home. In this new home he began to thrive and developed a 
stronger sense of self-advocacy. He decided to try employment again, 
and for months now, he has been working several hours a week, stocking 
coolers at a small store. He has done his job well, often offering 
customers anecdotal comments about the additives of certain carbonated 
beverages. Despite unsuccessful attempts at employment in the past, he 
is now considered a valued employee, connected to his community, and a 
boon to his self-esteem. Let's work together to make community 
integration, and employment, for people with disabilities the norm in 
the United States; for people with disabilities, for the strength of 
our economy, and for the vitality of our communities.
    Thank you again for this opportunity to testify. I look forward to 
your questions.
 Prepared Statement of Jeff Smith, Senior Mail Clerk, Arkema, King of 
                         Prussia, Pennsylvania
    Good afternoon. My name is Jeff Smith, I am 63 years old and live 
in the Philadelphia suburbs. I am excited to be here today to tell you 
about me. Thank you to Chairman Collins, Ranking Member Casey, and the 
Special Committee on Aging for inviting me.
    My mother is 94 years old and she couldn't come with me today to 
Washington, but I know she is watching me on TV! I have a brother named 
Tat who lives in Toronto and a sister named Carol who lives in New 
Mexico and they also could not come. I have a fiance in Philadelphia 
named Phyllis. She is here with me today, and so are Stacy Levitan and 
Dave Mytych from JCHAI, Judith Creed Horizons for Achieving 
Independence, which helps over 130 people with disabilities like me to 
live independently.
    I have worked at Arkema for 39--almost 40--years delivering the 
mail as a Senior Mail Clerk. I have my own apartment where I live by 
myself and I do not need help from my mother or my family.
    I get help once a week from Dave Mytych, my social worker, who 
works at JCHAI. JCHAI helps me to be independent and has changed my 
life. JCHAI helps me feel more positive about life because they help me 
have more friends and I see how happy everyone else is. Everyone I know 
has changed because of the help they get from JCHAI. JCHAI helps me 
with shopping, keeping my apartment clean, and cooking. Dave was a cook 
before and he helped me cook fish. We are going to try a new recipe 
next time that he says will make the fish taste even better!
    Because of JCHAI, it's a whole new way of life. I am treated better 
by everyone at work and in my life and it's because I am so happy.
    I am very proud that I have been able to work at Arkema for all of 
these years. Working at Arkema is great because I love delivering the 
mail. I go to a lot of different places, all over our campus which is 
one square mile. I get to do a lot of walking, which clears my mind and 
I can think of different ways that I can help the world. I like to meet 
different people at work and from all over the world, like from Japan, 
Korea, Vietnam, and China. I also have a lot of friends since I have 
been working there so long. I even have some friends who have been 
there almost as long as I have.
    I like that I have my own salary that lets me go to the laundromat, 
the market, and I can take Phyllis on dates or trips with JCHAI. 
Sometimes, we even go out of state on some of the trips, like to New 
Hampshire, Connecticut, and Massachusetts. All over the eastern 
seaboard!
    One of the things I like to do in my free time is work on my rock 
collection, which I have gotten rocks for in Colorado, Pennsylvania, 
Texas, and Arizona. I especially like quartz. The rocks give me a neat 
feeling when I look at them. I also collect coins from all over the 
world. I get them from change that I get when I buy things and 
sometimes I go to coin shops in Philadelphia and get coins there. Even 
the Natural Science Museum helps me. I can afford to do all these 
things because I have my own money that I earn from my job.
    Having my own job and support from JCHAI means that my mother 
doesn't have to worry about me anymore. She knows that I do great on my 
own! And if I need help, I don't have to get it from her--I know who to 
call, which is Dave and the people at JCHAI.
    Getting older is really just part of life--it's an interesting 
facet of life. When I was 30, I thought, ``I have so many more years of 
my life!'' Now I can look back and say that's gone, but I'm still 
working hard, making a living, I still have friends, I have help with 
everything I need, and it's really a tribute to how good life is.
    In the future, I will retire when I'm 66 because I will have a full 
pension and I will be able to live on that. When I retire, Phyllis and 
I will be able to spend a lot of time together and we'll live our own 
life. We'll do a lot of things with each other--we'll go on trips and 
go around together. We like to go to the movies, out to dinner, lunch, 
and breakfast. We go all over Philadelphia. I am looking forward to the 
next part of my life.
    Thank you for letting me talk to you today.


    
      
      
=======================================================================


                  Additional Statements for the Record

=======================================================================


   Statement of Sara Weir, President, National Down Syndrome Society
    Chairwoman Collins, Ranking Member Casey and Members of the 
Committee, on behalf of the National Down Syndrome Society (NDSS), the 
leading human rights organization for all individuals with Down 
syndrome, I appreciate the opportunity to submit this written Statement 
on barriers that limit opportunities for individuals with Down syndrome 
to work in meaningful and competitive employment settings.
    First, I want to commend Senators Casey and Burr for their 
leadership in bringing about enactment of the Stephen Beck Jr. 
Achieving a Better Life Experience (ABLE) Act of 2014 (Public Law 113-
295). This was the most significant legislation since the Americans 
with Disabilities Act was signed into law over 27 years ago to reduce 
barriers to opportunity, participation, independent living and economic 
self-sufficiency for people with disabilities. It does so by allowing 
individuals with disabilities to save money in tax-free savings 
accounts without it counting toward the assets limitations required to 
remain eligibility for critical government supports. Today, 28 states 
and the District of Columbia have launched ABLE programs, and 49 states 
have enacted implementing legislation.
    The ABLE Act created a solid foundation for our community to build 
on as we work to eliminate additional legal and non-legal barriers to 
the hiring, placement and advancement of individuals with Down syndrome 
in the workforce. Those barriers include the asset limitations of 
Medicaid and SSI, a Section 14(c) subminimum wage program that lacks 
transparency and doesn't facilitate a transition to competitive 
integrated employment (CIE), home and community based services that 
vary widely by State, and an employer community that lacks information 
about the value, productivity and workplace engagement benefits of 
employing people with disabilities.
    NDSS is also doing its part to break down barriers to employment 
for people with disabilities. In March 2016, we launched a new 
employment campaign for people with Down syndrome--
#DSWORKS<SUP>TM</SUP>--which is focused on developing employment 
resources for employers, families, self-advocates and local Down 
syndrome organizations; advancing a comprehensive federal and state 
legislative agenda that breaks down barriers to employment and creates 
incentives to hire individuals with Down syndrome; and launching a NDSS 
corporate roundtable of corporations committed to hiring individuals 
with Down syndrome.
    Earlier this month, NDSS launched a campaign entitled ``Law 
Syndrome,'' \1\ which seeks to address outdated laws that discourage 
all people with Down syndrome from fulfilling their potential. As part 
of the campaign, we call on Congress to advance a legislative agenda 
that focuses on the following key employment principles:
---------------------------------------------------------------------------
    \1\ See www.lawsyndrome.org.

    1. Right to Real Jobs for Real Wages--Individuals with Down 
syndrome have the right to pursue the full range of employment options 
that align with their talents, skills and interests and to earn at 
least the minimum wage for their work.
    2. Presume Competence--Individuals with Down syndrome can be 
competitively employed or self-employed, and should be given access to 
services and supports necessary to succeed in the workplace.
    3. Presume Full Integration--Employees with Down syndrome should be 
fully integrated physically, functionally and socially in the 
workplace, and given the necessary supports for success.
    4. Empower Informed Choice--Individuals with Down syndrome should 
be given accurate, up-to-date information regarding their options 
related to employment and about the potential impact of employment on 
their quality of life.
    5. Engage Employers--Employers should recognize the value of 
employees with Down syndrome as an integral part of their workforce and 
include all people within recruitment and hiring efforts.

    We are excited to be able to work with a new bipartisan working 
group \2\ in the House of Representatives that is focused on developing 
bipartisan legislation to help tackle archaic, outdated laws that 
continue to prevent individuals with disabilities from seeking out 
meaningful, competitive employment opportunities while maintaining and 
improving access to high quality benefits like Medicaid. The working 
group is being led by Representatives Cathy McMorris Rodgers (R-WA), 
Jim Clyburn (D-SC), Joe Crowley (D-NY), Gregg Harper (R-MS) and Tony 
Cardenas (D-CA).

    \2\ See https://www.gop.gov/working-group-employing-people-with-
disabilities/.
---------------------------------------------------------------------------
    Finally, we urge all Senators to support the ABLE to Work Act (S. 
818), sponsored by Senators Richard Burr and Bob Casey. This 
legislation promotes employment for people with disabilities by 
allowing ABLE beneficiaries who work and earn income, but do not 
participate in an employer's retirement plan, to save additional 
amounts in their ABLE accounts up to the federal poverty level 
(currently $12,060) in addition to the $14,000 annual maximum 
contribution. Beneficiaries would also be eligible for the Saver's 
Credit, an existing federal tax credit that low and middle-income 
individuals can currently claim when they make contributions to a 
retirement account. The legislation is needed because the ABLE Act's 
current $14,000 annual contribution cap does not sufficiently 
incentivize employment since it is the aggregate of all contributions 
to the ABLE account (including earned income), and employed 
beneficiaries are still unable to contribute to employer-provided 
retirement accounts, such as 401(k) plans.
    Thank you for the committee's leadership in studying this important 
issue. NDSS welcomes the opportunity to work with you to advance 
meaningful employment policies for people with disabilities.
  

                                  [all]
</pre></body></html>
